Audit Report




OIG-14-023
CDFI Fund Needs Better Controls Over Travel


January 29, 2014




Office of
Inspector General
Department of the Treasury
 
Contents


Audit Report....................................................................................................1

    Background ................................................................................................ 3

    Audit Results .............................................................................................. 4

        Federal Travel Requirements Were Not Consistently Followed ...................... 4

            Recommendations .............................................................................. 7

        Number of Travelers and Cost of a Hawaii Trip Were Excessive.................... 9

            Recommendations .............................................................................. 12

        Administrative Authority of the CDFI Fund Director Expired and Needs
        to Be Re-delegated .................................................................................. 13

            Recommendations .............................................................................. 14


Appendices

    Appendix     1:      Objectives, Scope, and Methodology ...................................... 17
    Appendix     2:      Hawaii Itinerary…………………………………………………………… 19
    Appendix     3:      Management Response ......................................................... 20
    Appendix     4:      Major Contributors to This Report ........................................... 23
    Appendix     5:      Report Distribution ................................................................ 24

Abbreviations

    ARC                  Administrative Resource Center
    CDFI Fund            Community Development Financial Institutions Fund
    FTR                  Federal Travel Regulation
    JAMES                Joint Audit Management Enterprise System
    LEA                  Legislative and External Affairs
    NACA                 Native American CDFI Assistance
    TD                   Treasury Directive




                         CDFI Fund Needs Better Controls Over Travel (OIG-14-023)                           Page i
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                                    Audit
OIG
The Department of the Treasury
                                                                                    Report
Office of Inspector General




                         January 29, 2014

                         Mary J. Miller
                         Under Secretary for Domestic Finance

                         Donet Graves
                         Deputy Assistant Secretary for Small Business, Community
                           Development and Housing Policy

                         This report represents the results of our audit of the Department of
                         the Treasury’s (Treasury) Community Development Financial
                         Institutions (CDFI) Fund’s travel expenditures. We initiated this
                         audit in light of broad concerns over the prudent use of
                         government funds for things like travel and conferences.
                         Additionally, concerns were raised to our office by a Treasury
                         official with respect to travel by the former CDFI Fund Director 1
                         (hereinafter referred to as the Director).

                         Our overall objective was to determine whether the CDFI Fund
                         followed applicable laws and regulations with respect to travel
                         incurred between July 2010 and June 2012. We tested $171,894
                         of $345,036 in CDFI Fund travel expenditures during this period,
                         including $26,011 in travel expenditures by the Director.
                         Appendix 1 contains a more detailed description of our audit
                         objectives, scope, and methodology.

                         In brief, we found weak controls at the CDFI Fund to prevent and
                         detect potentially wasteful spending on travel and to ensure
                         compliance with government-wide and departmental travel rules
                         and regulations. Our testing of 130 travel claims by CDFI Fund
                         officials and staff identified audit exceptions in 129 of them (an
                         exception rate of more than 99 percent). We also found an
                         instance where the Director, another CDFI Fund official, and two

1
    The former Director retired from Federal service on December 28, 2013.


                         CDFI Fund Needs Better Controls Over Travel (OIG-14-023)       Page 1
CDFI Fund staff incurred costs for a trip to Hawaii which were
neither reasonable nor necessary given the facts and circumstances
surrounding the travel purpose. Among other things, the Hawaii
trip was approved by Treasury’s Office of Legislative Affairs and
Treasury’s Office of Public Affairs based on information provided
by CDFI Fund personnel that we considered misleading. As a
separate matter, we noted during our audit that the Director did not
have the express authority to administer the CDFI Fund as a result
of Treasury Directive (TD) 11-02, Delegation of Authority for
Administering the Community Development Financial Institutions
Fund, which expired in November 2001. We are making seven
recommendations to improve controls over CDFI Fund travel and
address the expiration of TD 11-02.

In a written response, management agreed with our
recommendations to improve controls over processing CDFI Fund
travel authorizations and vouchers. Its response noted that travel
processing policies and procedures have been implemented at the
CDFI Fund to include operational examinations, budget reviews,
and management approvals of all authorizations and vouchers as
well as several levels of review by CDFI Fund and Treasury
officials. The process for approval of the CDFI Fund Director’s
travel has also been clarified and formalized. With regard to audit
exceptions identified in specific travel claims, management
determined that $3,288 of travel expenses are subject to recovery.
However, it did not fully agree with our analysis of other noted
exceptions to Federal Travel Regulation (FTR) and provided
explanations for some but not all instances in which recovery was
determined unwarranted. Management also addressed the
expiration of the Director’s authority to administer the CDFI Fund
and ratification of Directors’ actions since TD 11-02 expired. For
one recommendation, related to staff training, management will
need to identify its specific corrective actions in the Joint Audit
Management Enterprise System (JAMES), Treasury’s audit
recommendation tracking system. We have summarized and
evaluated management’s response in the recommendation sections
of this report. Management’s response is provided in appendix 3.




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)      Page 2
Background
                      The Riegle Community Development and Regulatory Improvement
                      Act of 1994 2 established the CDFI Fund to provide financial
                      assistance in the form of grants, loans, and other investments on a
                      competitive basis to certified community development financial
                      institutions. In July 1995, the CDFI Fund began operations within
                      Treasury with all powers and rights of the administrator assigned
                      to the Secretary of the Treasury. 3 Over the years, the CDFI Fund
                      has provided financial and technical assistance to CDFIs operating
                      in underserved communities through its CDFI and Native American
                      CDFI Assistance (NACA) programs. The CDFI Fund also supports
                      community development through its Bank Enterprise Award
                      Program, which provides grants to institutions insured by the
                      Federal Deposit Insurance Corporation, and the New Markets Tax
                      Credit Program, which awards tax credits to community
                      development entities investing in underserved communities.

                      Each fiscal year, the CDFI Fund requests funding for travel as part
                      of its administrative expenses. In its congressional justifications for
                      appropriations for fiscal years 2010 through 2012, CDFI Fund cited
                      the necessity to increase site visits for monitoring compliance by
                      CDFI Fund grant and New Markets Tax Credit recipients. CDFI
                      Fund personnel also travel for events such as award
                      announcements, conferences, and outreach. Funding levels for
                      travel were $119,000 in fiscal year 2010, $181,000 in fiscal year
                      2011, and $153,000 in fiscal year 2012.

                      When traveling, CDFI Fund personnel are required to follow
                      applicable provisions of the Federal Travel Regulation (FTR),
                      departmental travel directives, and guidance provided by Treasury’s
                      Office of Travel Services. Travel authorizations and vouchers are
                      approved by individuals designated with approval authority and
                      processed through GovTrip, a web-based system administered by
                      the Bureau of the Fiscal Service’s Administrative Resource Center
                      (ARC). 4 In February 2012, the CDFI Fund implemented its own

2
  Pub. L. No. 103-325 (Sept. 23, 1994)
3
  Pub. L. No. 104-19 (July 27, 1995)
4
  Effective October 2012, Treasury consolidated and re-designated the Bureau of the Public Debt (BPD)
and the Financial Management Service as the Bureau of the Fiscal Service. During the period of our
audit, ARC was administered by BPD.


                      CDFI Fund Needs Better Controls Over Travel (OIG-14-023)                  Page 3
                       policies and procedures regarding the initiation, examination,
                       review, and approval of CDFI Fund personnel travel authorizations
                       and vouchers.

Results of Audit

    Finding 1          Federal Travel Requirements Were Not Consistently
                       Followed

                       The FTR sets out the requirements that federal civilian employees
                       and others authorized to travel at the government’s expense must
                       adhere to with respect to travel activities. The FTR requires that
                       travelers ensure all travel expenses are practical and necessary and
                       exercise the same care in incurring expenses that a prudent person
                       would exercise if traveling on personal business. The FTR outlines
                       what are reasonable and necessary travel expenses to ensure that
                       travel is conducted in a responsible manner.

                       We identified 531 FTR audit exceptions in 129 of the 130 travel
                       claims we sampled. 5 For purposes of this report, an “audit
                       exception” is either (1) a potential violation where a claimed
                       expense may be ineligible for reimbursement or (2) a potential
                       violation of an administrative nature like the untimely submission of
                       travel claims, inappropriate approvals by undesignated individuals,
                       and/or missed opportunities for cost savings.

                       Table 1 summarizes the potential violations associated with 223 of
                       531 audit exceptions that may have been ineligible for
                       reimbursement. Management should follow up to determine the
                       eligibility of the claims for reimbursement.




5
  We selected our sample of 130 travel claims based on certain attributes, such as (1) travel that was
the subject of concern raised by a Treasury official, (2) travel charges claimed that appeared unusual in
nature, (3) lodging reimbursements that differed among travelers on the same trip or exceeded per diem
amounts, and (4) situations where the travel started prior to approval of the associated travel
authorization in GovTrip. See appendix 1 for a detailed explanation of our sample selection.


                       CDFI Fund Needs Better Controls Over Travel (OIG-14-023)                    Page 4
Table 1.    FTR Audit Exceptions
                                                  Number of
                                                    Audit
    Cost Description          FTR Section         Exceptions   Cost(s)
Unsupported travel
claims (e.g., no receipts      §301-52.4              35           $13,039
when required)
Unauthorized costs
                               §301-2.1
(e.g., costs not
                               §301-2.5                             11,138
authorized prior to                                   84
                             §301-71.103
commencing travel)
Lodging reimbursed
above authorized per         §301-11.100              28             2,747
diem
Excessive meals and
incidental expenses
(M&IE) (e.g., deduction       §301-11.18
from M&IE not made for       §301-11.101
                                                      30                 893
meals provided as part        §301-52.2
of a conference for
which the Government
may have paid a fee)*
Ineligible rental cars
(e.g., no advance
                              §301-2.5(g)              3                 871
authorization as
required)
Lodging taxes for
ineligible lodging            §301-11.27              26                 375
expenses
Lodging cost claimed
but not incurred by the      §301-11.100               4                 247
traveler
Ineligible transportation
expenses (e.g.,
                             §301-10.420               3                 182
transportation for
personal use)
Fees for upgrading to
                             §301-10.162               2                 103
business class
Ineligible shipping,
supplies, and material         §301-12.1               2                  81
handling costs
Ineligible baggage fee         §301-12.2               1                  50




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)            Page 5
                                                  Number of
                                                    Audit
    Cost Description          FTR Section         Exceptions      Cost(s)
Ineligible ATM fees            §301-12.1               5                      13
Total Number and Costs
Related to Audit
                                                  223                 $29,739
Exceptions for
Management Review
* Refer to Finding 2 for $58 of excessive per diem identified.

During our audit, we shared the detailed results of our tests with
CDFI Fund management and were told that action was being taken
to collect ineligible claims reimbursed to travelers. We did not
confirm whether repayments were made.

Table 2 summarizes the remaining 308 audit exceptions related to
untimely submission of travel claims, inappropriate approvals by
undesignated individuals, and missed opportunities for cost
savings. Federal agencies should pursue opportunities to lower
costs in order to maximize the use of their resources.


Table 2.    Other Audit Exceptions
                                                                 Number of
                                                                   Audit
             Description                       FTR Section       Exceptions

Approval of travel authorizations by
                                              §301-71.104           75
an undesignated official

Approval of travel vouchers by an
                                              §301-71.200           72
undesignated official

Untimely submission of travel claims            §301-52.7           62


Avoidable lodging taxes                        §301-11.28           42

                                              §301-71.105
Travel authorizations approved after
                                                §301-2.1            18
travel started
                                                §301-2.5
Avoidable Travel Management
                                               §301-2.3             15
Center (TMC) fees
                                             §301-71.203(a)




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)                 Page 6
                                                              Number of
                                                                Audit
             Description                       FTR Section    Exceptions

Use of hourly airport parking instead
                                               §301-2.3          10
of long-term parking
                                             §301-71.203(a)
Avoidable lodging expense (e.g.,               §301-2.3
                                                                  5
extended stays)                              §301-71.203(a)
Avoidable M&IE expense (e.g.,                  §301-2.3
                                                                  3
extended stays)                              §301-71.203(a)
Avoidable car rental expense (e.g.,
                                               §301-2.3
rental upgrades, local rental for D.C.                            3
                                             §301-71.203(a)
travel)
Avoidable flight expenses (e.g., fees          §301-2.3
                                                                  2
for missed flights, late bookings)           §301-71.203(a)
Unauthorized acceptance of
                                              §304-3.13(b)        1
payments from non-federal source
Total Number of Exceptions                                       308


Given the number of the audit exceptions identified and based on
our interviews with CDFI Fund personnel, we attribute the potential
violations with federal travel requirements and missed opportunities
for cost savings to (1) a lack of training with respect to federal and
departmental travel requirements and (2) a lack of meaningful
supervisory review of travel authorizations and vouchers. In fact,
we were told by one official who approved over half the travel
claims we tested that she did not review them.

Recommendations

We recommend that the Deputy Assistant Secretary for Small
Business, Community Development and Housing Policy:

1. Determine whether travel claims identified with audit exceptions
   were improperly reimbursed to employees and recover funds, as
   appropriate.

    Management Response

    Management agreed with our recommendation and determined
    that $3,288 related to 27 instances of questioned travel
    expenses was subject to recovery. Management also provided
    explanation for some travel claims not subject to recovery. In
    84 instances where travelers incurred costs without pre-


CDFI Fund Needs Better Controls Over Travel (OIG-14-023)              Page 7
    authorization, management determined that either the expenses
    were not for items that required specific approval under FTR
    Section 301-2.5 or provided after-the-fact approvals for those
    expenses where specific approval was required. In 18 of the 30
    instances in which employees were reimbursed for per diem
    without reduction to reflect the value of meals served at a
    conference, management determined that the Government did
    not pay a conference fee and that no meals were provided at
    the Government’s expense. With respect to the 35 instances
    where travel claims were not supported by required
    documentation, management stated that it has obtained
    receipts for 30 of them. For the remaining 5 instances,
    management stated the majority represented claims for airfare
    that were submitted without receipts. While management
    recognized receipts were required for these claims, this
    departure from the FTR created little, if any risk, of loss to the
    Government.

    OIG Comment

    Management’s response meets the intent of our
    recommendation. However, we would caution that departure
    from the FTR with regard to lack of receipts for airfare does
    pose a risk of loss to the Government, as a traveler has the
    ability to manipulate expenses on both the authorization and
    voucher. Additionally, receipts facilitate the review of travel
    claims incurred by those involved in the approval process.

2. Ensure that the CDFI Fund implements a training regime (both
   urgent and periodic refresher training) for all staff who might
   travel as part of their official duties, including management and
   approving officials. This training should include both federal and
   Treasury travel requirements, as well as the prudent use of
   travel funds.

    Management Response

    Management agreed with our recommendation and noted that
    the CDFI Fund has implemented travel processing procedures
    which include operational examinations, budget reviews, and
    management approvals of all travel authorizations and vouchers.
    Additionally, management stated that after travel payments

CDFI Fund Needs Better Controls Over Travel (OIG-14-023)         Page 8
                have been processed, Departmental Office’s travel staff review
                and audit 100 percent of CDFI Fund travel vouchers so that any
                errors can be corrected promptly, and any recurring problems
                can be identified and addressed through further training or other
                appropriate means.

                OIG Comment

                We acknowledge management’s agreement with the
                recommendation. However, the response does not directly
                address the need for staff training in travel requirements. We
                reiterate our concern that given the extent of exceptions found
                in our audit, urgent and periodic refresher training of both
                travelers and approving officials is essential to help ensure these
                exceptions do not reoccur. Management should record its
                corrective actions addressing the training needs noted in our
                recommendation in JAMES.

            3. Ensure that CDFI Fund approving officials are reminded of their
               responsibility to review travel authorizations and vouchers for
               compliance with the FTR and Treasury requirements for travel
               and to reject claims that are in violation or not supported.

                Management Response

                Management agreed with our recommendation and noted that
                the CDFI Fund has implemented travel processing procedures
                which include operational examinations, budget reviews, and
                management approvals of all travel authorizations and vouchers.

                OIG Comment

                Management’s response meets the intent of our
                recommendation.

Finding 2   Number of Travelers and Cost of a Hawaii Trip Were
            Excessive

            Federal agency personnel have a responsibility to act as careful
            stewards of taxpayer dollars ensuring that funds are used for
            purposes that are appropriate, cost effective, and limited to what is


            CDFI Fund Needs Better Controls Over Travel (OIG-14-023)         Page 9
necessary to accomplish an agency’s mission. The FTR requires
that travel related expenses be reasonable and in line with what a
prudent person would incur when conducting personal business.

We found a case where CDFI Fund officials and staff incurred costs
for a trip to Hawaii which were neither reasonable nor necessary
given the facts and circumstances surrounding the travel purpose.
The Director, the Manager of Legislative and External Affairs (LEA),
an Associate Manager of LEA, and the NACA Portfolio Manager
traveled to Honolulu, Hawaii from August 21 to 26, 2011, to
announce the fiscal year 2011 NACA awards. Travel expenditures
totaling $13,435 were incurred for this trip. Prior to the trip, CDFI
Fund’s LEA office provided a memorandum on July 26, 2011, to
Treasury’s Office of Legislative Affairs and subsequently, on
August 1, 2011, to Treasury’s Office of Public Affairs and the
Deputy Assistant Secretary for the Office of Small Business,
Community Development and Housing Policy notifying them of
three potential locations for announcing the 2011 NACA awards—
Hawaii, Minnesota, and South Dakota—with Hawaii being the CDFI
Fund’s recommended site for the announcement.

An official in Treasury’s Office of Public Affairs communicated
approval of the Hawaii trip via e-mail on August 5, 2011. However,
we found the trip’s approval was based on information provided by
the CDFI Fund that we consider misleading. In its memorandum,
the CDFI Fund noted that the travel distance to Hawaii should be a
minimal consideration since the Director was already scheduled to
speak at events in Hawaii the week of August 22. We found,
however, that this was not the case. In fact, there were no
speaking engagements planned for the Director until after the travel
was approved.

There were concerns expressed about this trip in e-mails between
Treasury personnel. In an August 4, 2011 email, the Office of
Public Affairs noted that

    “CDFI is proposing they do their NACA awards in Hawaii the
    last week of August when [the Director] is planning to be
    there for 2 speeches already.”

    “Is this 3 press hits all in one day? Don’t love optics of
    this [.] If she’s [the Director] there anyway, that helps but if

CDFI Fund Needs Better Controls Over Travel (OIG-14-023)          Page 10
    she’s already doing 2 open press speeches (or are they
    closed?) seems a bit like stepping on ourselves...”

An official with the Office of Legislative Affairs noted in an e-mail
response that

    “…after some thought and discussion with [the Assistant
    Secretary of Legislative Affairs], I told CDFI that we were ok
    with it so long as PA [Public Affairs] was ok with it. We
    advised about the optics of the locale and on the number of
    staff traveling (given Hill interest on travel) but that from a
    pure Hill perspective, Senate and House representation, it
    was fine by us—again pending AOK from you all.”

When we inquired about the necessity of the three managers
accompanying the Director for the 2011 NACA awards
announcement scheduled on August 24, we were told that their
purpose was to provide logistical support and to handle media and
congressional relations. This explanation lacked plausibility and we
believe the number of travelers was excessive given the trip’s
purpose and itinerary (see appendix 2 for the Hawaii trip itinerary).

In addition to the trip’s approval being based on questionable
information, the Director and the three others embarked on a day
trip from Honolulu to Kona, Hawaii (the Big Island) without
Treasury’s prior approval or knowledge. The group flew to the Big
Island on August 23 to tour the Kanu o ka Aina Learning ‘Ohana, a
nonprofit educational provider that received technical assistance
awards in 2009, 2010, and 2011 totaling $413,124.

No events or site tours were originally scheduled for August 23. It
was noted in CDFI Fund e-mail correspondence dated August 19
that with respect to August 23, the

    “[Vice Chairman] (Bank of Hawaii) is helping coordinate a
    site visit to one of the better projects in Hawaii. I’ve spoken
    to [the Director] and [sic] few times and she is on board with
    it. I think it will be quite memorable! And we have nothing
    else planned for Tuesday.”




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)        Page 11
                     This email excerpt shows that the visit to the Big Island was
                     not contemplated at the time the trip to Hawaii was
                     proposed to or approved by Treasury.

                     We also identified $235 in ineligible costs associated with this trip.
                     Specifically, the Director was reimbursed lodging of $177 that was
                     not incurred and the Associate Manager of LEA was reimbursed
                     extra per diem of $58.

                     It should be noted that prior to October 2012, there was no formal
                     policy for supervisory approval of the Director’s travel. Instead,
                     there was a practice of requesting approval from Treasury’s Office
                     of Public Affairs and Treasury’s Office of Legislative Affairs for
                     trips where public appearances were planned. However, the travel
                     authorizations themselves were administratively approved in
                     GovTrip, Treasury’s travel management system, by the Director’s
                     subordinate staff. In October 2012, the Deputy Assistant Secretary
                     for Small Business, Community Development and Housing Policy
                     issued a memorandum requiring his approval of certain matters to
                     include senior executive travel. 6 Subsequently, in January 2013,
                     this control was further strengthened when the responsibility for
                     approving the Director’s travel authorizations and vouchers in
                     GovTrip was assigned to two members of the immediate staff of
                     the Under Secretary for Domestic Finance. These changes in the
                     approval process represent an improvement in controls over the
                     Director’s travel.

                     Recommendations

                     We recommend that the Deputy Assistant Secretary for Small
                     Business, Community Development and Housing Policy:

                     1. Ensure that travel requests by the Director include information
                        on things such as travel mission and purpose, duration and
                        itinerary, staffing needs specific to each trip, and
                        reasonableness of travel estimates. Only those trips (location,
                        duration, and number of travelers) that are justified should be
                        approved.

6
 Memorandum, “Document and Issues Clearance” (dated Oct. 10, 2012) provides clearance procedures
on documents and issues related to the CDFI Fund, Small Business Lending Fund, and the State Small
Business Credit Initiative.


                     CDFI Fund Needs Better Controls Over Travel (OIG-14-023)              Page 12
              Management Response

              Management agreed with our recommendation and noted that
              the process for approval of the CDFI Fund Director’s travel has
              been clarified and formalized.

              OIG Comment

              We acknowledge management’s agreement with this
              recommendation although the response lacked specificity that
              the approval process includes a review of the travel mission and
              purpose, duration and itinerary, staffing needs specific to each
              trip, and reasonableness of travel estimates. We caution again
              that only those trips (location, duration, and number of
              travelers) that are justified should be approved.

          2. Seek reimbursement of $235 for ineligible costs associated with
             the trip to Hawaii.

              Management Response

              Management stated it will seek reimbursement of $177
              erroneously reimbursed to the CDFI Fund Director. However,
              management determined that the $58 reimbursed to the
              Associate Manager of Legislative and External Affairs was
              appropriate as the per diem entitlement was miscalculated when
              the travel authorization was prepared, but the employee was, in
              fact, entitled to the full amount reimbursed.

              OIG Comment

              Management’s response meets the intent of our
              recommendation.

Finding 3 Administrative Authority of the CDFI Fund Director
          Expired and Needs to Be Re-delegated

          While reviewing authorities within the CDFI Fund to approve the
          expenditure of travel funds, we noted that the Director’s authority
          to administer the CDFI Fund as delegated by the Under Secretary


          CDFI Fund Needs Better Controls Over Travel (OIG-14-023)      Page 13
                      of Domestic Finance expired on November 2, 2001.7 Since that
                      time, six Directors have served without an express delegation of
                      authority.

                      Administrative authority over the CDFI Fund was provided in the
                      Riegle Act which established that the CDFI Fund would be
                      managed by an administrator appointed by the President and
                      confirmed by the Senate. The administrator would have various
                      duties, including “determining the character of and necessity for
                      expenditures of the Fund and the manner in which they shall be
                      incurred, allowed, and paid.” 8 In 1995, the CDFI Fund was placed
                      within the Department of the Treasury and all powers and rights of
                      the administrator were transferred to the Secretary of the
                      Treasury. 9 In turn, the Secretary delegated administrative authority
                      to the Under Secretary of Domestic Finance, 10 who re-delegated
                      the authority to the Director of the CDFI Fund in TD 11-02.

                      According to TD 00-05, Department of the Treasury Orders and
                      Directives System issued May 1999, Treasury management is to
                      review directives 4 years after date of issuance. 11 We alerted legal
                      counsel at the CDFI Fund in October 2012 and Treasury General
                      Counsel in November 2012 about this matter, and were told that
                      the directive would be re-evaluated.

                      Recommendations

                      We recommend that the Under Secretary for Domestic Finance
                      work with the Treasury Office of General Counsel to

                      1. Ensure that administrative authority of the CDFI Fund is re-
                         delegated to the Director.


7
  See TD 11-02, Delegation of Authority for Administering the Community Development Financial
Institutions Fund, dated Nov. 2, 1998.
8
  12 U.S.C. §4703, Establishment of National Fund for Community Development Banking
9
  Emergency Supplemental Appropriations for Additional Disaster Assistance, for Anti-terrorism
Initiatives, for Assistance in the Recovery from the Tragedy that Occurred at Oklahoma City, and
Rescissions Act, 1995 (Public Law 104-19; July 27, 1995)
10
   Treasury Order 101-20, Administering the Community Development Financial Institutions Fund; (dated
Aug. 14, 1995)
11
   Superseded by TD 00-05 issued April 12, 2010



                      CDFI Fund Needs Better Controls Over Travel (OIG-14-023)               Page 14
    Management Response

    Management agreed with our recommendation and noted that
    the Under Secretary for Domestic Finance signed TD 13-05,
    Delegation of Authority for Administering the Community
    Development Financial Institutions Fund, dated October 31,
    2013.

    OIG Comment

    Management’s response meets the intent of our
    recommendation.

2. Determine whether actions authorized by the Directors of CDFI
   Fund since the expiration of TD 11-02 in November 2001
   require ratification.

    Management Response

    Management agreed with our recommendation and determined
    that the actions authorized by the Directors of the CDFI Fund
    since the expiration of TD 11-02 in 2001 do not require
    ratification.

    OIG Comment

    Management’s response meets the intent of our
    recommendation.




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)    Page 15
                                 ******

We appreciate the courtesies and cooperation provided to our staff
during this audit. If you wish to discuss this report, you may
contact me at (202) 927-5400 or Donna Joseph, Deputy Assistant
Inspector General for Financial Management and Information
Technology Audits at (202) 927-5784. Major contributors to this
report are provided in appendix 4.



/s/

Marla A. Freedman
Assistant Inspector General for Audit




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)    Page 16
Appendix 1
Objectives, Scope, and Methodology


We initiated an audit of the Community Development Financial
Institutions (CDFI) Fund travel in June 2012 in light of the
Administration’s broad concerns over prudent use of government
funds for travel. Additionally, concerns were raised to our office by
a Department of the Treasury (Treasury) official with respect to
travel by the CDFI Fund Director. The objective of our audit was to
determine whether the CDFI Fund followed applicable laws and
regulations with respect to travel expenditures incurred from
July 1, 2010, through June 30, 2012, in support of the CDFI Fund
programs.

To accomplish our objectives, we:

•   researched applicable laws, regulations, policies and procedures
    related to travel;

•   interviewed Treasury and CDFI Fund officials and personnel to
    determine roles and responsibilities with regard to travel
    decisions and approvals;

•   selected a sample of 130 travel vouchers from a universe of
    328 travel vouchers representing $171,894 of $345,036 in
    total travel expenditures for the 2-year audit period. The 130
    claims were made by 42 travelers of the CDFI Fund. Our sample
    included 16 travel vouchers representing expenses of $26,011
    for travel by the Director. Our selection was based on attributes
    such as (1) travel that was the subject of concern raised by a
    Treasury official, (2) travel charges that appeared unusual in
    nature (e.g., for items such as materials and shipping),
    (3) lodging reimbursements that differed among travelers on the
    same trip or over per diem amounts, and (4) situations where
    the travel started prior to approval of the related authorization in
    GovTrip;

•   tested the sample for compliance with provisions of the Federal
    Travel Regulation and Treasury Directives to include
    requirements for the proper authorization of travel, the
    allowability of amounts claimed, and the review and approval of
    claims reimbursed.

We conducted our fieldwork at the CDFI Fund and Departmental
Offices in Washington, D.C., between June 2012 and May 2013.


CDFI Fund Needs Better Controls Over Travel (OIG-14-023)         Page 17
Appendix 1
Objectives, Scope, and Methodology


We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe that the
evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)      Page 18
                Appendix 2
                Hawaii Itinerary




Attached to the voucher for each employee who traveled to Hawaii was a
memorandum to the file prepared by CDFI Fund Legislative and External Affairs,
dated September 28, 2011, 1 month after the trip’s end. The memorandum was
prepared for the purpose of providing background details and answering questions
that had been raised with regard to the official days of travel the Government was
paying for and approval of the last minute site visit to Kona (Big Island) on
August 23, 2011. Included as an attachment to the memorandum was the
following itinerary, provided to the travelers on the evening of Sunday, August 21,
2011, after their arrival in Hawaii.




                CDFI Fund Needs Better Controls Over Travel (OIG-14-023)     Page 19
Appendix 3
Management Response




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)   Page 20
Appendix 3
Management Response




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)   Page 21
Appendix 3
Management Response




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)   Page 22
Appendix 4
Major Contributors To This Report




Donna Joseph, Deputy Assistant Inspector General for Financial
  Management and Information Technology Audits
Lisa Carter, Audit Manager
James Hodge, Auditor-in-Charge
Alexander Granado, Auditor
Owais Rizvi, Auditor
Roberta Wright, Auditor
Anne Ryer, Program Analyst
Adelia Gonzales, Referencer




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)   Page 23
Appendix 5
Report Distribution




Department of the Treasury

    Deputy Secretary
    Under Secretary for Domestic Finance
    Assistant Secretary for Financial Institutions
    Deputy Assistant Secretary for Small Business, Community
      Development and Housing Policy
    Office of the Deputy Chief Financial Officer, Risk and Control
      Group

Community Development Financial Institutions Fund

    Deputy Director

Office of Management and Budget

    OIG Budget Examiner




CDFI Fund Needs Better Controls Over Travel (OIG-14-023)       Page 24
 
